NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                 OIG REPORT TO OMB ON THE
           NATIONAL CREDIT UNION ADMINISTRATION’S
                    COMPLIANCE WITH THE
               FEDERAL INFORMATION SECURITY
                     MANAGEMENT ACT
                            2007
             Report #OIG-07-08       September 12, 2007




                         William A. DeSarno
                          Inspector General


    Released by:                       Auditor-in-Charge:




    James Hagen                       W. Marvin Stith, CISA
    Asst IG for Audits                Sr Information Technology Auditor
         OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S COMPLIANCE WITH
                          THE FEDERAL INFORMATION SECURITY ACT – 2007
                                       Report #OIG-07-08


                                            CONTENTS




Section                                                                                    Page

    I        EXECUTIVE SUMMARY                                                               1

    II       OFFICE OF MANAGEMENT & BUDGET REPORT FORMAT                                     2

Appendix
   A     Independent Evaluation of the NCUA Information Security Program – 2007

    B        NCUA Financial Statement Audits – FY2006


Section II and Appendix B are limited to restricted official use only.

Appendix A is Audit Report OIG-07-09 dated September 12, 2007.
              INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION
                            INFORMATION SECURITY PROGRAM - 2007
                                      Report #OIG-07-08

                               I. EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
engaged Grant Thornton LLP to independently evaluate its information systems and security
program and controls for compliance with the Federal Information Security Management Act
(FISMA), Title III of the E-Government Act of 2002.

Grant Thornton evaluated NCUA’s security program through interviews, documentation reviews,
technical configuration reviews, social engineering testing, and sample testing. We evaluated
NCUA against standards and requirements for federal government agencies such as those
provided through FISMA, National Institute of Standards and Technology (NIST) Special
Publications (SPs), and Office of Management and Budget (OMB) memorandums. We
conducted an exit conference with NCUA on June 29, 2007, to discuss evaluation results.

The NCUA made noticeable progress in strengthening its Information Technology (IT) security
program during Fiscal Year (FY) 2007. Notable accomplishments include:

       Completion of Certification and Accreditation packages for all of its FISMA systems.
       Implementation of additional encryption protection for data on examiner laptops.

While NCUA made commendable progress in addressing the deficiencies reported last year,
management could still improve IT security controls in the following areas:

       NCUA needs a better document management program.

       NCUA has not implemented continuing education requirements for its Information
       Technology employees.

       Employee enter/exit/change procedures do not ensure timely removal of terminated
       employees’ access to NCUA systems.

       E-Authentication risk assessments for its systems need to be completed.

       A formal agency-wide security configuration guide should be developed.

       Incident response procedures should be followed.

       Personnel security awareness training needs to be completed in FY 2007.

       NCUA’s Plan of Actions and Milestones (POA&M) process needs improvement.

       Security controls testing for all of NCUA’s FISMA systems needs to be completed.

       Segregation of duties should be maintained or compensating controls established.

       NCUA vulnerability management needs improvement.

We appreciate the courtesies and cooperation provided to our auditors during this audit.

.


                                               1
